<html>
<title> - ``THE HEROIN EPIDEMIC AND PARENTAL SUBSTANCE ABUSE: USING EVIDENCE AND DATA TO PROTECT KIDS FROM HARM''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   ``THE HEROIN EPIDEMIC AND PARENTAL
                  SUBSTANCE ABUSE: USING EVIDENCE AND
                    DATA TO PROTECT KIDS FROM HARM''

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2016

                               __________

                          Serial No. 114-HR10

                               __________

         Printed for the use of the Committee on Ways and Means
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                           U.S. GOVERNMENT PUBLISHING OFFICE
22-105                           WASHINGTON : 2017                           
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>  



                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    VERN BUCHANAN, Florida, Chairman

KRISTI NOEM, South Dakota            LLOYD DOGGETT, Texas
JASON SMITH, Missouri                JOHN LEWIS, Georgia
ROBERT J. DOLD, Illinois             JOSEPH CROWLEY, New York
TOM RICE, South Carolina             DANNY DAVIS, Illinois
TOM REED, New York
DAVID G. REICHERT, Washington


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 18, 2016 announcing the hearing..................     2

                               WITNESSES

Panel One

The Honorable Karen Bass, a Representative in Congress from the 
  State of California............................................     7
The Honorable Tom Marino, a Representative in Congress from the 
  State of Pennsylvania..........................................     6

Panel Two

.................................................................
Katherine Barillas, Director, Child Welfare Policy, One Voice 
  Texas..........................................................    33
Hector Glynn, Vice President for Programs, The Village for 
  Families & Children............................................    28
Bryan Lindert, Senior Quality Director, Eckerd Kids..............    42
Tina M. Willauer, MPA, Director, Sobriety Treatment and Recovery 
  Teams (START), Kentucky Department for Community Based 
  Services, Kentucky Cabinet for Health and Family Services, and 
  Consultant, Children and Family Futures........................     9

                       SUBMISSIONS FOR THE RECORD

American Academy of Pediatrics...................................    90
Children's Hospital of Wisconsin.................................    98
Donna Butts......................................................   101
New York State Office of Children and Family Services............   107
SHIELDS for Families.............................................   110
The American Congress of Obstetricians and Gynecologists.........   120
The Premier Healthcare Alliance..................................   122

 
                   ``THE HEROIN EPIDEMIC AND PARENTAL
                  SUBSTANCE ABUSE: USING EVIDENCE AND
                    DATA TO PROTECT KIDS FROM HARM''

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:06 p.m., in 
Room 1100, Longworth House Office Building, Hon. Vern Buchanan 
[Chairman of the Subcommittee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES CONTACT: (202) 225-3625

FOR IMMEDIATE RELEASE
Wednesday, May 11, 2016
No. HR-10

                   Buchanan Announces Human Resources

             Subcommittee Hearing on ``The Heroin Epidemic

              and Parental Substance Abuse: Using Evidence

                  and Data to Protect Kids from Harm''

    House Human Resources Subcommittee Chairman Vern Buchanan (R-FL), 
announced today that the Subcommittee will hold a hearing entitled 
``The Heroin Epidemic and Parental Substance Abuse: Using Evidence and 
Data to Protect Kids from Harm'' on Wednesday, May 18, 2016, at 2:00 
p.m. in room 1100 of the Longworth House Office Building. At the 
hearing, Members will examine the effectiveness of programs designed to 
address parental substance abuse and protect children from harm. 
Members also will explore State efforts to better use data to identify 
and serve children most at risk due to parental substance abuse, and 
the impact of the substance abuse epidemic on the child welfare system.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Wednesday, June 1, 2016. For questions, or if you encounter 
technical problems, please call (202) 225-3625 or (202) 225-2610.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    All submissions and supplementary materials must be submitted in a 
single document via email, provided in Word format and must not exceed 
a total of 10 pages. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.

    All submissions must include a list of all clients, persons and/or 
organizations on whose behalf the witness appears. The name, company, 
address, telephone, and numbers of each witness must be included in the 
body of the email. Please exclude any personal identifiable information 
in the attached submission.
      
    Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at 
http://www.waysandmeans.house.gov/.

                                 

    Chairman BUCHANAN. The Subcommittee will come to order.
    Welcome to the Ways and Means Subcommittee on Human 
Resources hearing on ``The Heroin Epidemic and Parental 
Substance Abuse: Using Evidence and Data to Protect Kids from 
Harm.'' Welcome to today's hearing on how the heroin epidemic 
and more general parental substance abuse is hurting our 
Nation's children and how we can use evidence and data to 
protect more of them from harm.
    The heroin epidemic is a growing crisis affecting children 
and families across the country and it is reaching into our 
local communities. In 2014, according to the Centers for 
Disease Control and Prevention, more Americans died from drug 
overdose than car accidents, and over 60 percent of those 
deaths were from heroin, painkillers, and other opioids.
    In Florida, we know all too well of the consequences. We 
started to address this epidemic years ago by reducing access 
to opioids and decreasing their supply. Now that it is cheaper, 
and just as potent, heroin has taken over. Heroin overdose in 
Florida increased by 900 percent 2010 to 2014--900 percent. 
Unfortunately, the epicenter for the Florida crisis is in my 
own district, Manatee County, where more people died from 
heroin overdose per capita than in any other Florida county in 
2014.
    We have been talking about the issues of opioid addiction 
more broadly these last 2 weeks here in Congress, and I have 
been championing a comprehensive approach to provide more 
education, prevention, treatment programs to those in need. I 
was pleased to see a legislative solution, the Comprehensive 
Opioid Abuse Reduction Act of 2016, pass the House last week. 
The Senate has passed a similar bill, and I hope we can quickly 
resolve our differences so we can help more families 
immediately.
    While we have made great progress, there is one area that 
deserves further attention: The impact parental substance abuse 
has on families. This crisis has a serious impact on our 
children, especially those who come in from foster care because 
of parental drug abuse. According to the data and news reports, 
parental drug abuse is a leading factor in why children enter 
foster care facilities. And multiple States have cited opiate, 
heroin, and other substance abuse as a major reason for the 
increase in foster care.
    Caseloads and Federal data support this view. In fiscal 
year 2014, more than 25 percent of those children found to be 
victims of abuse and neglect had caregivers with drug abuse 
problems. Thankfully, many States, including Florida, are 
leading the effort to combat this crisis.
    Today, we will learn about some of these approaches, 
including ways to serve families at home or in other settings 
so children can remain safely with their parents or more 
quickly return home if they must enter foster care. Florida and 
other States are also using data gleaned from prior child 
welfare cases to reform their responses to new cases, allowing 
them to more quickly and effectively respond to prevent tragic 
consequences.
    In addition to those State efforts, the Senate Finance 
Committee has developed a draft proposal to shift foster care 
funding into services that will help prevent abuse and neglect. 
These reforms will encourage States to support programs that 
better address parental substance abuse and other issues, as 
well as implement programs that have proven their effectiveness 
in addressing the needs of parents and their children.
    Today's hearing will help us take a closer look at the 
Senate's proposal and help in moving bipartisan, bicameral 
legislation. We have taken positive steps forward in the House 
to address the opioid crisis and substance abuse. Now it is 
time to turn to the kids that need our help as well.
    I look forward to hearing more about these efforts today 
and discussing how we can work together on a bipartisan effort 
to protect more children from harm, because strong families 
make for a strong community.
    I now yield to the distinguished gentleman, the Ranking 
Member, Mr. Doggett, for the purposes of an opening statement.
    Mr. DOGGETT. Thank you so much, Mr. Chairman, for your 
interest in this matter and for holding today's hearing.
    As I see it, this hearing is addressing one aspect of a 
critical problem. It is addressing the question that I think 
represents a failure by this Congress and by one State after 
another to deal effectively with child abuse.
    Within the past month, on one of the front pages of the San 
Antonio Express-News, there was a report: ``Kids who were bound 
constantly want food.'' Officers rescued a boy, 4, who was tied 
by his ankle with a dog chain in the yard at his home. His 
sister, 3, had her hands tied with a leash above her head, her 
arm broken in two places. Authorities said the two had been 
physically abused for at least 2 weeks. ``They constantly want 
food,'' said their attorney ad litem.
    Just a few miles up the road and only a few days apart, a 
little girl, 1 year old, sexually abused by her mother's 
boyfriend, along with her sister, she was killed by the 
physical abuse that she suffered.
    And only a few days before that, a young student at the 
University of Texas was murdered by a child who had been 
physically abused himself, was in the foster system, but had 
run away from it.
    Time after time, not only in Texas, but across the country, 
we see the price that is being paid for our failure to deal 
effectively with child abuse. And because our courts have also 
seen it, this is an emerging crisis.
    In my home State of Texas, the situation for severely 
abused and neglected children is so bad that a Federal court in 
Texas has declared the system unconstitutional, as was done 
previously in the State of Mississippi, as has occurred in 
challenges in one State after another.
    In her ruling Judge Jack wrote, ``Years of abuse, neglect, 
and shuttling between inappropriate placements across the State 
has created a population that cannot contribute to society and 
proves a continued strain on the government through welfare, 
incarceration, or otherwise.''
    Certainly the problem with opioids, drug abuse, is a very 
big factor, from talking to people in the field who deal with 
this issue every day in Texas.
    And it is great that some legislation was passed last week 
concerning that aspect of the problem. There is only one major 
concern about that and about what we are not doing on child 
abuse here, and that is that talking about it, passing changes 
without approving necessary resources to get to the problem, 
where caseworkers for child protective services are 
underskilled and overburdened with cases, just talking about it 
and not putting the resources out there to deal with and to 
prevent these tragedies and moving our resources so that they 
focus on prevention, not just responding after one of these 
horrible events occurs, and not just lurching from one tragedy 
to another, that is what this Congress ought to be focused on.
    Senator Wyden and I have introduced legislation to try to 
change the focus to prevention. Our first speakers today, who 
have worked on child abuse, have raised many of these concerns. 
A scaled-down version of that legislation Senator Wyden and I 
introduced has been circulated now in draft form. There is 
agreement about some of the things that need to be done. There 
is certainly bipartisan agreement in this Committee about the 
importance of doing something.
    The issue is: Are we willing to put our money where our 
mouth is? Just reorganizing the deck chairs on the Titanic by 
moving some money from one part of child abuse to another will 
not get the job done. Our States need to do more, but we can in 
this Congress provide resources and provide an incentive to the 
States, particularly those that are under court order like 
Texas and Mississippi and the other States that are likely to 
be under court order when their cases are finished, provide 
them an incentive to do right by these children.
    We won't stop all child abuse, of course, but we can 
prevent some of these tragedies by applying the resources we 
have within our ability to provide and work together to address 
these kinds of concerns, back up and encourage the States, and 
get the resources we need to reduce the level of child abuse.
    And I yield back.
    Chairman BUCHANAN. Without objection, other Members' 
opening statements will be made part of the record.
    On our first panel this afternoon we will be hearing from 
two of our distinguished colleagues, the Honorable Tom Marino 
of Pennsylvania and the Honorable Karen Bass of California.
    Mr. Marino, please proceed with your testimony.

STATEMENT OF THE HON. TOM MARINO, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. MARINO. Good afternoon, and thank you, Chairman 
Buchanan and Ranking Member Doggett and the Members of the 
Subcommittee, for giving us the opportunity to testify on an 
issue that is important to both of us.
    It is abundantly clear that our Nation is facing a 
substance abuse epidemic. Unfortunately, one group that we fail 
to mention as being affected are the children who have been 
placed in foster care because their parents' have become 
addicted to drugs and alcohol.
    Over 400,000 American children are in foster care. In my 
home State of Pennsylvania alone, approximately 15,000 children 
reside in foster care. As a former State and Federal 
prosecutor, I have seen firsthand how substance abuse directly 
affects children, and I have seen my share of children on slabs 
in morgues.
    Many of the people I had been tasked with prosecuting were 
parents whose children ended up in foster care. This was done 
with the hopes that following treatment, these offenders could 
become parents again.
    This is not always the case. Many of the individuals who 
enter treatment programs find that their necessary care is cut 
short due to gaps in healthcare insurance and they are unable 
to afford additional treatment.
    We recognize that substance abuse is a serious disease that 
requires serious treatment. Nevertheless, there is a great void 
in the way that our current health system treats substance 
abuse. In most cases, the only treatment available to those 
affected is short-term intervention like detoxification.
    To adequately treat those who suffer from substance abuse, 
we must provide serious long-term treatment. Those addicted 
must have the ability to be treated by specialists and receive 
proper medications.
    In this current environment, we are doing a disservice to 
those who require treatment. Many addicts are ineffectively 
treated. Although one may leave treatment and be ``cured'' by 
some standards, more often than not one ends up behind bars or 
in another futile program because their first attempt failed.
    The question remains: What can we do to ensure that those 
who require help get the proper treatment and are reunited with 
their children?
    One treatment option I have advocated for years would be 
placing nondealer, nonviolent drug abusers in a secured 
hospital-type setting under the constant care of health 
professionals. Once the person agrees to plead guilty to 
possession, he or she will be placed in an intensive treatment 
program until experts determine that they should be released 
under intense supervision. If this is accomplished, then the 
charges are dropped against that person. The charges are only 
filed to have an incentive for that person to enter the 
hospital/prison, if you want to call it that.
    In an effort to keep them in touch with their children, we 
can offer them the chance to continue to visit with and 
eventually care for their children as they undergo treatment. 
This is a massive project. Not only are we dealing with trying 
to cure the drug addict, but we are trying to keep a family 
together.
    And it is going to take a lot of money. The Feds are going 
to have to be involved in this, the States are going to have to 
be involved with this, the local child welfare agencies are 
going to have to be involved with this. This isn't just one 
entity that is going to take care of this.
    Initially, we would have to separate them. But hopefully, 
after they have been cleared by medical professionals, one can 
regain custody of their children while still receiving 
treatment in the facility. This treatment option may offer a 
better chance for addicts to finally be cured and have a normal 
life, but also their children have a normal life.
    As with any disease, there is no one-size-fits-all approach 
to substance abuse treatment. Some people respond to treatment 
in different ways, and for most it takes a very long time. 
Congress must continue to address the current drug crisis and 
keep searching for better ways to treat addicts and tend to 
foster children.
    We must also continue to protect the children of parents 
who are suffering from substance abuse. Placing these children 
in foster care is necessary. However, in the instances where we 
can keep the families together, it remains an important key to 
curing drug addiction.
    With that, I yield back.
    Chairman BUCHANAN. Thank you, Mr. Marino.
    Ms. Bass, please proceed with your testimony.

STATEMENT OF THE HON. KAREN BASS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. BASS. Thank you, Chairman Buchanan, Ranking Member 
Doggett, and Members of the Subcommittee. Thank you for the 
opportunity to give remarks to you today.
    Tom Marino and I serve as two of four Co-Chairs of the 
Congressional Caucus on Foster Youth and have been very much 
involved in this issue.
    This is a critical time in our country, and from my 
perspective we actually have an opportunity to learn from the 
last drug epidemic--crack cocaine in the 1980s and 1990s.
    I can assume that many of you were not in Congress during 
those years. I was in Los Angeles serving as a member of the 
faculty at the USC Medical School and I spent several years 
working in the emergency room in LA County.
    Our response during those years to the crack cocaine 
epidemic was one of outrage and anger. We were angry at people 
who were addicted, and we were particularly outraged at women 
and mothers who suffered from addiction and neglected their 
babies, and even abandoned their babies in the hospital after 
delivery.
    We passed laws that eventually led to an 800 percent 
increase in the incarceration rate for women, and the number of 
children removed from home and placed into foster care 
skyrocketed. At the height of the epidemic, there were over 
40,000 children in foster care in Los Angeles County alone. 
Today that number has been reduced by over 50 percent.
    The crack cocaine epidemic and advances in science led to 
today's understanding that addiction is a brain disease. One of 
the characteristics of addiction, unfortunately, is relapse. 
And so far in the latest epidemic we are not hearing cries for 
incarceration. I do worry, however, that those cries might 
still be coming.
    So far we seem to be approaching the opioid epidemic and 
addiction differently. Just as science advanced our 
understanding of addiction, research has certainly advanced our 
understanding about how to handle families that are in crisis. 
We know the majority of children in foster care are removed 
from home because of neglect, and we know that that neglect is 
secondary to addiction, mental illness, or both, dual 
diagnosis.
    We know that removing a child from home is traumatic for 
the child regardless of the circumstances. We certainly know 
that there are times we absolutely must remove a child for 
their safety. However, we have also learned that families can 
benefit tremendously when services like drug treatment are 
provided in a fashion that allows families to remain intact.
    I agree with my colleague, Mr. Marino, that you need to 
have a variety of approaches. There is no one-size-fits-all. I 
want to suggest a couple of programs, some of which I believe 
you are going to hear from today.
    Members of this Committee passed legislation allowing 
States to apply for IV-E waivers to use Federal funds in 
developing evidence-based programs to see if the number of 
children in care can be safely reduced and outcomes can be 
improved. Many States have used the funds to target parents 
with substance abuse disorders. Kentucky and Maine are 
implementing a program known as START, Sobriety Treatment and 
Recovery Teams. I know you will hear from them directly in the 
next panel. Oklahoma connects parents to substance abuse 
services. San Francisco has a program called Family Link that 
includes both residential and outpatient substance abuse 
treatment services.
    In LA County, SHIELDS for Families has created a 
therapeutic community where entire families live in an 
apartment community. In the last 5 years, more than 81 percent 
of the participants have completed all phases of the program, 
which can last up to a year, and maintained their sobriety and 
kept their families intact. This program has saved LA County 
millions of dollars that would have been spent placing children 
in foster care.
    The legislation this Committee passed allowing States to 
apply for title IV-E waivers is set to expire in 3 years, 2019. 
After years of implementing programs, States and counties have 
developed many evidence-based practices that have successfully 
and safely reduced the number of children in care or improved 
outcomes. So now is the time to consider implementing Federal 
finance reform.
    I believe this Committee will soon be discussing the Family 
Stability and Kinship Care Act that will provide flexibility in 
the use of title IV-E dollars. If and when this Committee does 
consider the legislation, I would hope that substance abuse 
will be up front and center.
    When people suffer from addiction, sometimes they have to 
hit rock bottom before they face the reality of their disease. 
Sometimes rock bottom results in them losing their children. 
Many times women refuse treatment because they don't want to 
leave their children and enter a program. Then their addiction 
spirals so far out of control the government has to intervene.
    I come before you today out of concern for the individuals 
and families that have lost everything. So if they had 
insurance, they lost it, and if they lost their jobs their 
families cannot afford expensive drug treatment programs.
    So we as a society have a choice. We can incarcerate them 
when they begin criminal behavior to support their addiction. 
We can remove their children and place them in foster care. 
Both choices cost the Federal Government billions of dollars 
and in too many cases result in the government supporting the 
individual their entire life when they end up in prison. Or we 
could look at how we increase funding to SAMHSA for community-
based drug treatment services.
    Thank you.
    Chairman BUCHANAN. Thank you, Ms. Bass.
    Do any of the Subcommittee Members have questions for our 
colleagues on the panel?
    If there are no further questions, then you are free to go, 
and I want to thank you for testifying before the Subcommittee 
today. Thank you very much.
    Ms. BASS. Thank you.
    Chairman BUCHANAN. Now we will move on to our second panel. 
On the second panel this afternoon we will be hearing from four 
experts: Ms. Tina Willauer, Director for Sobriety Treatment and 
Recovery Teams, START, of the Kentucky Department for Community 
Based Services with the Kentucky Cabinet for Health and Family 
Services; Mr. Hector Glynn, Vice President for Pro- 
grams, The Village for Families & Children; 
Ms. Katherine Barillas, Director of Child Welfare Policy for 
One Voice Texas; and Mr. Bryan Lindert, Senior Quality Director 
for Eckerd Kids.
    We will begin with you, Ms. Willauer, whenever you are 
ready.

    STATEMENT OF TINA M. WILLAUER, MPA, DIRECTOR, SOBRIETY 
 TREATMENT AND RECOVERY TEAMS (START), KENTUCKY DEPARTMENT FOR 
   COMMUNITY BASED SERVICES, KENTUCKY CABINET FOR HEALTH AND 
  FAMILY SERVICES, AND CONSULTANT, CHILDREN AND FAMILY FUTURES

    Ms. WILLAUER. Thank you, Chairman Buchanan, Ranking Member 
Doggett, and Members of the Subcommittee. Thank you so much for 
conducting this hearing on our Nation's opioid crisis and the 
effects of parental substance use disorders on our Nation's 
child welfare system. I am honored to talk with you today about 
Kentucky's efforts over the last 10 years to address these very 
issues. And in my career of 25 years in child protective 
services, this has been my dedication. So thank you.
    The good news is that we know a lot more today about what 
works with families in this population. There are good programs 
all across this country that really save money and have 
improved outcomes. I am going to talk to you today about the 
Sobriety Treatment and Recovery Team, or START, program that 
has been implemented in Kentucky, and I have three primary 
points today.
    First of all, START has better outcomes for children and 
families than standard CPS.
    Number two, strategies that work for families include 
collaboration across systems, intensive work, quick access to 
substance use disorder treatment, shared decisionmaking, peer 
supports, and a nonpunitive approach, among other strategies.
    Number three, the current opioid epidemic reinforces that 
the most important policy issue in child welfare right now is 
changing the financing model to prevent foster care placements 
whenever safe and possible and taking the programs that work to 
scale by using the lessons of prior Federal investments.
    So why did Kentucky invest in START? Well, in 2006 we had a 
terrible opioid epidemic going on with prescription drugs in 
Kentucky. And at that time, 80 percent of the children in 
Kentucky's foster care system were there because a parent had a 
substance use problem. So this was a real crisis and an 
opportunity for our State to invest in a program that works.
    So what is START? START is a child welfare-led program that 
helps parents achieve recovery, and it keeps children in the 
home when safe and possible. START serves CPS-involved families 
with a substance-exposed infant or young children. And in START 
we address addiction as a brain disorder because we know that 
it affects the whole family and it requires treatment.
    So in START we pair specially trained CPS social workers 
with family mentors, and family mentors are persons in long-
term recovery from addiction who actually had a CPS case in 
their past. They are now stable and in recovery, and they help 
new parents engage in treatment.
    Together, that worker and mentor dyad serves families, a 
very small caseload of families, and they intervene very 
quickly upon the CPS report, right away. Kind of maximizing on 
that window of crisis, we partner with substance use treatment 
providers, and parents can get into treatment from START within 
48 hours.
    So creatively working with families, giving quick access to 
treatment, and providing wraparound supports can allow us to 
leave some children in the home safely while the whole family 
gets treatment.
    So at the same time that we were implementing START in 
Kentucky, Kentucky was lucky enough to be awarded with two RPG 
grants, in 2007 and 2012, and it was just the right initiative 
at just the right time. The reason is because we receive a lot 
of technical assistance and there was a real push for rigorous 
program evaluation that allowed us to study START.
    With RPG support, we have now produced four peer-reviewed 
journal articles, and START is now listed in the California's 
Evidence-Based Clearinghouse for Child Welfare as a program 
with promising evidence.
    The work isn't done, however. We continue to build START 
in Kentucky. And we are building on the evidence. We are actu- 
ally expanding the program in Louisville, Kentucky, under the 
title 
IV-E waiver program.
    So what did we learn? START serves the top highest risk 
cases in the entire State, but the mothers in START achieve 
double the sobriety rates of those moms who didn't receive 
START services, children in START were 50 percent less likely 
to enter foster care, and at case closure, over 75 percent of 
the children served by START were actually reunified with their 
biological parent or they remained there in the home the whole 
time.
    Because of our low rate of recurrence of maltreatment, very 
few children ever reenter foster care, and for every dollar 
spent on START, we save the Commonwealth of Kentucky $2.22 just 
in the avoidance of foster care cost alone.
    So in closing, I can't think of a better time in the midst 
of this opioid crisis to better protect children and families 
with substance use disorders. START has more than a decade of 
study behind it as to what works. We know what works now. And I 
am thankful for the IV-E waiver program, as well as the RPG 
program.
    But we now must move from demonstration projects to system-
wide reform, meeting the problem at the scale of need. So 
really at this point, we would like to move the financing of 
child welfare so the family can remain intact, and receive 
services. And what we know is preventing kids from entering 
foster care not only saves money, but it reduces trauma to 
children and families.
    Thank you so much.
    [The prepared statement of Ms. Willauer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman BUCHANAN. Thank you, Ms. Willauer.
    Mr. Glynn, please proceed with your testimony.

           STATEMENT OF HECTOR GLYNN, VICE PRESIDENT 
       FOR PROGRAMS, THE VILLAGE FOR FAMILIES & CHILDREN

    Mr. GLYNN. Committee Members, thank you for the honor of 
being here. My name is Hector Glynn. I work with The Village 
for Families & Children in Hartford, Connecticut. We are a 
large nonprofit provider for the area.
    We are part of the National Traumatic Stress Network, which 
has allowed us to expand our expertise in evidence-based models 
and treatment, to include models such as eye desensitization 
and reprocessing, child-parent psychotherapy, modular approach 
to therapy for children with anxiety, depression, trauma, and 
conduct problems, and trauma-focused cognitive-behavioral 
therapy.
    But today I am here to talk about a truly unique program 
called FBR, Family-Based Recovery. In Connecticut almost half 
of the foster care placements for children under 3 have at 
their core an issue of substance abuse.
    So in 2006, the Connecticut child welfare agency, the 
Department for Children and Families, brought together Yale and 
Johns Hopkins to develop a new approach in dealing with this 
crisis. It was really focused on the idea that most parents 
really have a strong desire and drive to be good parents and 
that that could be the motivating factor to changing their 
behaviors.
    So FBR combines treatment of substance abuse using a 
reinforcements-based treatment and a child connection 
adaptation type of approach, which helps to motivate and 
control the desires.
    When FBR started in 2006, it quickly got expanded to 10 
regions throughout the State of Connecticut. When we looked at 
the outcomes in this model, it is really about transforming the 
system, because what we asked the child welfare agency to do is 
keep families together, even though there was evidence and 
proof of substance abuse.
    So these families, we go in three times a week at a minimum 
to provide both the child-parent psychotherapy together and the 
substance abuse treatment, and we are testing for substance use 
at least three times. This type of monitoring helps to create a 
shared risk profile between us, the providers, and the child 
welfare agency and the parents and constantly gives feedback on 
how they are doing.
    Since 2007, 564 caregivers have been in the program; 51 
percent of these clients have had positive tests in the first 
week, and that rate drastically drops down to, like, 14 percent 
by the time they are being discharged. Eighty percent of the 
families that we are working with are intact when we are 
discharging them from the program, and it really shows the 
strength.
    And this isn't just about the program that The Village 
offers. It is a program of network. The model was developed out 
of Yale. It is an evidence-based model. And for our 
terminology, that means there is a higher level of monitoring 
to fidelity. Yale comes in and reviews our tapes of how we are 
doing within sessions. They look at our substance abuse logs. 
They look at the connections and the types of work that we do. 
And that is really what is crucial. It is about what does work 
versus just providing services.
    So for us at The Village, 62 percent abstained from drugs 
or alcohol 30 days prior to their discharge, and 88 percent of 
the families were intact at the point of our discharge. But the 
network continues to be extremely strong. And like I said, 
there are 10 others that are involved within there.
    The substance abuse, they have tested thousands of parents, 
and only 8.2 percent of the families have had ongoing relapses 
in which they needed a higher level of care or newer levels of 
treatment.
    We really do believe that this is a model that builds upon 
the strengths of what parents can do and what families can do. 
And this type of approach, along with case management to help 
support the poverty and other factors that make it difficult 
for families to stop using drugs, is the way to--at least one 
approach--to dealing with this crisis.
    Thank you.
    [The prepared statement of Mr. Glynn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you, Mr. Glynn.
    I would like to advise Members that a series of votes has 
been called. I anticipate this series of votes to last about 30 
minutes. 
I would ask the Members to return to the hearing as quickly as 
possible from voting. This hearing will stand adjourned subject 
to the--oh, recess, recess, okay--subject to the call of the 
Chair.
    [Recess.]
    Chairman BUCHANAN. The Committee will come to order.
    I recognize Ms. Barillas for 5 minutes.

               STATEMENT OF KATHERINE BARILLAS, 
        DIRECTOR, CHILD WELFARE POLICY, ONE VOICE TEXAS

    Ms. BARILLAS. Good afternoon, Chairman Buchanan, Mr. 
Doggett, and Members. My name is Dr. Katherine Barillas, and I 
am Director of Child Welfare Policy at One Voice Texas, a 
health and human services advocacy organization. Thank you for 
the opportunity to testify today.
    As you heard from Mr. Doggett, our child welfare system in 
Texas is in crisis. And let me say this is a crisis of 
resources, where the needs of children in the child welfare 
system far outpaces the State, Federal, and local resources 
currently allocated.
    Substance use, almost 80 percent of the cases in the foster 
care system, has a profound impact on resources, just as it did 
when I was an investigator for Child Protective Services back 
in the late 1990s. What I have observed over my 20-year career 
is that we often do not get to these families and children soon 
enough.
    One of the reasons it is so critical to ensure cases 
involving substance abuse receive expedited services is the 
impact that being separated from a parent can have, 
particularly on a very young child. Women and Children 
Residential Services is one specialized program that promotes 
parent-child bonding. This program allows mothers to stay with 
their children while the former is in inpatient treatment.
    Despite the benefits implied with this model, it does face 
challenges, one of which is judges are seldom willing to put 
children in treatment, so to speak. There is also a myth that 
women can't focus on their treatment if their children are 
there ``bothering'' them. The truth is that when women enter 
programs with their children they are able to work on parenting 
and try out improved techniques under supervision and modeling.
    Unfortunately, providers of this program are scarce. Part 
of the challenge is funding, which would be somewhat alleviated 
if States had the option of using title IV-E funding to pay for 
these services and were able to draw down Federal foster care 
match for the children when they are living with their parent 
who is receiving treatment.
    Another area where we must direct resources is kinship 
caregivers, particularly those caring for children not yet in 
foster care. These are fairly stable living arrangements with 
the right resources, but without them they can easily break 
apart.
    Texas provides financial benefits to informal arrangements 
when a child is in conservatorship but not to parental child 
safety placements. A PCSP in Texas is basically an arrangement 
between CPS, a parent, and a relative caregiver to prevent a 
child from coming into foster care. These are short-term 
placements used to alleviate risk so parents can address issues 
in the home relatively quickly.
    PCSPs are sometimes used in cases where parents are 
struggling with substance abuse, but time is limited in these 
cases--not a good match unless time and family-based safety 
services are extended, with strong support to the kinship 
caregiver.
    The research is clear that children in kinship placements 
have better outcomes than their peers in foster care. So 
imagine outcomes for those children who age out of the system. 
These youth face far worse than their peers in terms of lower 
rates of high school graduation and college attendance, higher 
rates of homelessness, substance abuse, and mental health 
problems.
    These young people have a desire and the ability to be 
independent, but without the appropriate preparation they can 
easily become the next generation of drug users and parents in 
the CPS system.
    Recommendations for this population include transition 
living services being extended up until youth are 23 years old 
and the time limit on family unification vouchers being 
extended past 18 months to 2 years to meet standard lease 
requirements and give youth time to attain stability in their 
lives.
    For kinship, we need Congress to direct resources such as 
monthly payments and reimbursements at these placements, which 
keep children out of the very expensive and detrimental foster 
care system, and to allow payments to kinship families to be 
used to draw down IV-E dollars.
    Congress also needs to ensure that title IV-E coverage can 
be used for more than just out-of-home care in order to address 
substance abuse issues early. We also need to support the 
expansion of IV-B funds and a time extension around family-
based safety services and family reunification.
    We also need States to have guidance regarding the 
importance of family treatment programs and visitation and the 
promotion of women and children's programs as a vital treatment 
option for women with young children.
    Thank you.
    [The prepared statement of Ms. Barillas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you, Ms. Barillas.
    Mr. Lindert, please proceed with your testimony.

                  STATEMENT OF BRYAN LINDERT, 
              SENIOR QUALITY DIRECTOR, ECKERD KIDS

    Mr. LINDERT. Chairman Buchanan, Ranking Member Doggett, and 
Subcommittee Members, thank you for the opportunity to address 
the Committee on the use of data to keep children known to the 
child welfare system safe.
    My name is Bryan Lindert, and I am the Senior Quality 
Director at Eckerd Kids, a nonprofit provider of services to 
children and youth operating in 20 States and the District of 
Columbia. We also manage the largest privately operated child 
welfare system in the country, serving more than 6,000 children 
and youth in Tampa Bay.
    The number-one reason children enter the system is for 
maltreatment from a substance-abusing parent. The aim of my 
testimony is threefold: To describe how Eckerd Kids ended a 
tragic pattern of homicides that occurred prior to Eckerd's 
involvement; to explain how that success has led to 
partnerships with five States to prevent future abuse 
fatalities; and to explore the implications of our approach to 
other child welfare challenges, including a potential improved 
response to repeat maltreatment due to substance abuse.
    Our work developing a priority tool called Eckerd Rapid 
Safety Feedback was recently featured in the final report of 
the bipartisan Commission to Eliminate Child Abuse and Neglect 
Fatalities released in March of this year. To understand why, 
we must explain why Eckerd Kids was selected to manage the 
child welfare system in Hillsborough County beginning in July 
of 2012.
    This occurred after that community experienced an 
unprecedented nine child deaths from maltreatment in less than 
3 years. These cases were not co-sleeping deaths or the result 
of inadequate supervision. Instead, they were intentional 
inflicted injuries, including one child thrown out of a moving 
car on the interstate. Worse still, they occurred under the 
open jurisdiction of the court.
    In Hillsborough, as in other jurisdictions around the 
country, the Department of Children and Families reviewed these 
cases and came to a frustrating conclusion: The fatalities kept 
happening to children with similar risk factors and lapses in 
casework. A more proactive approach was needed.
    Therefore, in addition to the review of the nine child 
deaths, Eckerd Kids conducted a 100-percent review of the 1,500 
open child welfare cases in the county. From this review, 
critical case practice issues were identified that, when 
completed to standard, could reduce the probability of 
preventable serious injury or death. Among these case practices 
were quality safety planning, quality supervisory reviews, and 
the quality and frequency of home visits.
    Now that Eckerd knew what to look for, the next step was to 
determine which cases needed to be prioritized for review. So 
Eckerd Kids secured a technology partner that specializes in 
predictive analytics, Mindshare Technology, to identify the 
cases most like the prior fatalities on incoming cases in 
realtime. Cases that were prioritized had multiple common 
factors, such as a child under the age of 3, a paramour in the 
home, intergenerational abuse, and history of substance abuse.
    Eckerd Kids then reviewed these cases against the practices 
identified with better safety outcomes and conducted coaching 
sessions with the frontline staff when deficits were 
identified.
    The results have been promising. In Hillsborough, there 
were no maltreatment fatalities in the 3-year period following 
implementation of the program in the population served by 
Eckerd. Critical case practices also improved an average of 22 
percent. As a result, Eckerd Kids and Mindshare are now working 
with Oklahoma, Maine, Alaska, Illinois, and Connecticut.
    Regardless of the jurisdiction, the problem needs the same 
ingredients for success. These include: A narrowly defined 
challenge the jurisdiction is trying to solve, such as the 
prevention of a fatality to a child with prior abuse reports; 
daily access to the State Automated Child Welfare Information 
System, allowing for predictions that continuously improve and 
update as new data is entered; access to quality assurance 
reviews assessing case practice; and experienced staff to 
review the identified cases for the key safety practices and 
provide coaching to the field.
    In closing, it is important to note that we are not 
advocating decisions made by machines. What is needed is a 
second set of eyes to ensure we are doing our best casework and 
positive outcomes for the children and families in our care.
    Therefore, we are advocating that data and coaching 
together provide a support for those men and women working with 
families to help them focus attention where it is needed most. 
I know from past experience as an investigator and supervisor 
in the field I would have appreciated the help.
    Mr. Chairman and Members of the Subcommittee, thank you 
again for the opportunity. I will present my testimony in full 
for the record and look forward to answering any questions.
    [The prepared statement of Mr. Lindert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman BUCHANAN. Thank you, Mr. Lindert.
    I want to thank all of you for excellent testimony.
    We will now proceed to the portion of the hearing that is 
the questions-and-answers session.
    Mr. Lindert, in your testimony, you talked about the 
thorough review your organization undertook of child welfare 
cases in Hillsborough County in Florida. As you began handling 
child welfare cases, you noticed that you found a pattern, you 
noticed certain common features, such as parental substance 
abuse, that were correlated with serious injuries or death.
    I know you have been working with other States to do the 
same things, but, from my understanding, you were the first in 
this area to really work in this area.
    Should other counties be doing the sort of review of data 
to help them better understand the cases of abuse and neglect, 
from your viewpoint?
    Mr. LINDERT. From our view, yes. We are actively searching 
for additional partners to work with and additional 
jurisdictions to work with beyond the initial five.
    It was also one of the recommendations of the Commission to 
Eliminate Child Abuse and Neglect Fatalities, which is 
Recommendation 2.1, that other States and other jurisdictions 
take a look at all of these cases in the same vein.
    Chairman BUCHANAN. When you look at data, what type of data 
are you looking at? When you say review of data, what----
    Mr. LINDERT. So we are looking at factors that are 
demographics, such as the age of the child involved in the 
case, but we are also looking at system factors, such as the 
number of police reports that have been received on an 
individual family.
    Chairman BUCHANAN. Why do you find, when you go into these 
other States, that many States aren't taking advantage of the 
data or best practices or the idea of continuous improvement? 
What is your sense of why they are not taking advantage of 
that?
    Mr. LINDERT. My sense is that this is a new area of work. 
Until recently, we didn't have the technology to take our eyes 
out of the rearview mirror and put them on the dashboard. We 
can now, if there is new information learned on a case, adjust 
what we think the risk level of that case is based upon the new 
information that is received right when it happens. Until 
recently, we weren't able to do that. So this is a new 
opportunity.
    But I think the broader issue is probably this. Anytime 
there is a tragedy, there is an intense focus, and rightly so, 
on that tragedy that occurs, but it tends to be episodic in 
nature rather than taking the long view. And I think the 
recommendations of the Commission are that we must take the 
long view so that we understand these patterns better, rather 
than making policy or decisions based on an individual case.
    Chairman BUCHANAN. The other thing you mentioned, at least 
I understood, is the way you operate is a private-public 
partnership. Tell me how that works and why that works.
    Mr. LINDERT. So, in Florida, the child welfare system is 
called the community-based care system. In each community, a 
nonprofit provider partners with the Department of Children and 
Families in order to provide the child welfare services that 
are received. We operate all services once a child is removed 
from their home up to the time that they are adopted or have 
independent living services and even post-adoption support.
    So we manage all of those services through the same 
partnerships that would be required of any State agency or 
county agency if they were operating the child welfare system.
    Chairman BUCHANAN. Thank you.
    I now recognize the distinguished Ranking Member for any 
questions that he might have.
    Mr. DOGGETT. Well, thank you, Mr. Chairman.
    And each of you provided valuable testimony.
    Ms. Willauer, I am just reviewing again your written 
testimony, knowing you couldn't give it all here, but what 
strikes me as being very important is your comment there on 
page 15 that there are hundreds of unserved families in 
Kentucky and the START sites are unable to take all the 
referrals due to full caseloads. And then you say: ``It is time 
to take the lessons of all of the prior Federal investments of 
these families and move them to scale by providing the States 
with funds and technical assistance needed to reform their 
systems.''
    Basically, you have a good approach. It is evidence-based. 
You can show how it has been effective. Haven't you been doing 
this in some parts of Kentucky now for over two decades?
    Ms. WILLAUER. Yes. Actually, Kentucky implemented START in 
2007, but it came out of Ohio. It was operating in Cleveland, 
Ohio, from 1997 for about a decade and a half also----
    Mr. DOGGETT. You still can't cover all of the State----
    Ms. WILLAUER. No.
    Mr. DOGGETT [continuing]. Because you don't have adequate 
resources to cover all of it.
    Ms. WILLAUER. Well, that is true. And I can tell you that 
in Louisville, Kentucky, for example, for every family we 
served, we had to turn away two that had the same exact needs. 
So we have pockets of excellence in Kentucky and across the 
Nation, but nothing is to scale.
    Mr. DOGGETT. And, Ms. Barillas, in Texas, I believe the 
same IV-E waiver program that she is talking about only covers 
one county, only Houston.
    Tell me about, from your perspective, what additional 
resources will be necessary in Texas to comply with this 
Federal court order declaring the system a failure and 
unconstitutional to meet the needs of these children and their 
families.
    Ms. BARILLAS. Well, it is definitely a resource issue. 
Three particular things that the lawsuit mentioned was a lack 
of oversight of facilities, which was leading to children being 
sexually abused; caseworkers lapsing in their duties--in fact, 
one particular report said caseworkers were only able to spend 
26 percent of their time with children and families, so the 
majority of their time was spent on paperwork and more 
administrative duties; and then youth transitioning out of 
care. This young man who is accused of the UT student's murder 
is a prime example. He was 17 and a runaway. He had no 
particular mental health treatment, no transitioning services 
to help prepare him for adulthood. And we see that happening 
too often.
    So, certainly, more oversight of our facilities; not just 
more caseworkers but well-trained caseworkers; and we need a 
tremendous amount of resources to help our youth actually age 
out, be independent, and be free of that system.
    Mr. DOGGETT. So, in Texas, only about one-fourth of the 
time that these caseworkers have their child protective 
services is actually about reaching out to troubling situations 
like the ones that I described and others have described.
    Ms. BARILLAS. Yes, sir.
    Mr. DOGGETT. And you have an immense turnover of these 
caseworkers. They come in, the pay is low, they are cycled 
through the system, and then you have someone new.
    And in Texas also, we far exceeded the recommended load for 
these caseworkers, sometimes by really tremendous amounts, so 
that we hear when a child is found chained or a child is found 
abused that Child Protective Services didn't do its job, and in 
some cases it did not, but in some cases we are loading up 
those caseworkers with a load that is so big that they can't 
possibly do their job.
    Ms. BARILLAS. Well, there are certain priority cases where 
caseworkers haven't been out at all for weeks up to months, 
especially in Dallas. We have had a crisis in that area, where 
caseworkers are leaving in droves, and because of all the poor 
media attention, they are having a lot of trouble hiring 
anybody. So one of the things they have done, our Health and 
Human Services commissioner has indicated he wants to remove 
the 4-year degree requirement and reduce training hours, which, 
to me, is a very dangerous and explosive combination.
    Mr. DOGGETT. Would all of you agree that, knowing we have 
limited resources here also that we will be able to focus on 
this problem, that looking at IV-E and prevention moneys, if we 
have to prioritize, that that is a good place to focus our 
attention?
    Ms. BARILLAS. Yes, sir.
    Ms. WILLAUER. Yes, sir.
    Mr. DOGGETT. Mr. Glynn.
    Mr. GLYNN. Yes, sir.
    Mr. DOGGETT. And Mr. Lindert.
    Mr. LINDERT. Yes.
    Mr. DOGGETT. Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    Chairman BUCHANAN. I now recognize Mr. Reichert.
    Mr. REICHERT. Thank you, Mr. Chairman.
    I want to start out a little philosophical, I guess, with a 
quote from President Adams that kind of goes to the point that 
Mr. Doggett was making in his opening statement. We can pass 
all the laws we want to pass, but this is just a portion of a 
quote, where he says, ``Our Constitution was made only for a 
moral and religious people. It is wholly inadequate to the 
government of any other.''
    And so, you know, as we talk about parents who are chaining 
their children and locking them in closets and taking their 
life, where is this society headed? Where are we? The fabric of 
our society is disintegrating and falling apart, and so where 
is it left? It is left in the hands of people like all of you.
    And thank you so much for all the hard work that you do. My 
daughter was a caseworker, and I know from her experience. You 
don't know me, but my experience was in law enforcement for 33 
years, so I get this from having had to call CPS, I have had to 
take children out of their homes.
    I ran away from home when I was a senior in high school. I 
was one of those kids at 16 years old who left my home because 
of domestic violence, because of alcoholism, and but for the 
grace of God, you know, here I am today to be in this position 
to help you.
    I have so many things that I want to say, I hardly know 
where to begin. Just the 33 years alone should tell you what I 
have seen and where I have been. I was the lead detective on 
the Green River serial murderer case. In that case, that person 
took over 60 lives. Those young girls on the street were 
addicts. They were abused at home. They ran away from home, 
looking for somebody to care for them. They were abused on the 
street. Then they were abused by the judicial system and 
victimized over and over and over.
    And so we have to start where the problem, you know, really 
begins, and that is at the family. And that is where we really 
have to focus in order to prevent those kids from getting into 
that position where--the young man you spoke about, and me as a 
16-year-old leaving home and fortunately not falling into that 
pathway.
    My daughter and her husband also adopted two drug-addicted 
babies from an organization called the Pediatric Interim Care 
Center in Kent. My grandson, who is now 13, was adopted at 3 
months, and was a meth-addicted baby. My granddaughter, who is 
now 12, was a crack cocaine and heroin-addicted baby.
    PICC, keeping their statistics--a review of 140 infants 
discharged by PICC in 2013 and 2014 found only 8 of those 
infants who had changed their placements--only 8 out of 140 had 
changed placements, and the majority of those infants had moved 
from a parent to a relative or a relative to a parent again, 
those 8. So, you know, that is one of the success stories in 
our neck of the woods. And you have success stories too.
    I only have a minute and a half left here. I am really 
excited about what PICC does and about the blessing that Emma 
and Briar have brought to our family. And what happened there 
was the visitation between the parents--I have been to PICC, 
and those drug-addicted parents come in, they rock the babies, 
they hold the babies. They try to get off drugs. Sometimes they 
can, sometimes they can't. Sometimes the babies have to be sent 
to foster care, and then sometimes, guess what, they have to be 
adopted. And, in our case, we have just been blessed.
    I am curious to know if any of you have programs like PICC 
in your State. I will stop talking, because otherwise you won't 
be able to answer the question.
    I am just passionate about this. You know, PICC, they take 
the babies from the hospital, because the hospitals don't have 
the time to withdraw them, right? So they take the babies, and 
they get them off drugs. And then they work with the parents, 
and they work--no? Yes?
    Ms. BARILLAS. In Houston, we have a facility called Santa 
Maria Hostel, and they actually are one of these women and 
children residential services that I spoke of, and they work 
with both the children and the parents. But that early 
attachment and bonding is so critical to their----
    Mr. REICHERT. Yeah.
    Ms. BARILLAS [continuing]. Brain development, that that is 
why they want to keep mom and baby together. And so----
    Mr. REICHERT. Yep.
    Ms. BARILLAS [continuing]. That has been very successful in 
Houston.
    Mr. REICHERT. Good. Maybe we can share some information 
back and forth and----
    Ms. BARILLAS. Sure.
    Mr. REICHERT [continuing]. Make the programs better.
    Mr. LINDERT. I would reiterate those comments for Florida. 
We also partner with a number of providers of that nature, and 
would reiterate all the comments made.
    Mr. REICHERT. I yield back. Thank you, Mr. Chairman.
    Chairman BUCHANAN. Thank you.
    I now recognize Mr. Davis for 5 minutes.
    Mr. DAVIS. Thank you, Mr. Chairman. I commend you and 
Ranking Member Doggett for holding this hearing today.
    One of my top priorities on this Subcommittee is 
modernizing our approach to families and child welfare affected 
by parental substance abuse. For months, I have worked with 
experts to draft a bill that does just this. My bill amends the 
current Regional Partnership Grants both to focus the grants on 
what the research shows works and to scale up these grants to 
the State level.
    I will introduce this evidence-based approach this month in 
honor of National Foster Care Month. We need to update our laws 
to reflect the decade of research, and I look forward to 
continuing to work with the Chair and Ranking Member to advance 
these reforms.
    Although I have championed evidence-based policy, I must 
raise concern from experts about whether we have the data 
infrastructure and research base necessary for large-scale 
implementation of predictive analytics.
    And I request permission, Mr. Chairman, to submit for the 
record this dissenting report of the Honorable Judge Patricia 
Martin, a Commissioner on the Commission to Eliminate Child 
Abuse and Neglect Fatalities.
    [The submission of The Honorable Danny Davis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DAVIS. Judge Martin is a national expert on child 
welfare whom I have known for decades, and if she has concerns, 
then I think our Subcommittee should give serious consideration 
to them.
    Ms. Willauer, given that timely access to treatment is 
related to child welfare reunification outcomes, can you tell 
us more about how you achieve quick access to services? And 
what are your recommendations to make this type of quick access 
available in more States and communities?
    Ms. WILLAUER. Thank you for that question. I think it is 
the key to child welfare reform, quick access to parental 
substance use treatment.
    So I think that there are a couple things. We need 
resources. We need treatment providers. Sometimes there is a 3- 
to 6-month waiting list in Kentucky, for example.
    So, again, I think that I would reiterate what you are 
saying, and that is, for example, Regional Partnership Grants, 
taking them to a State level, providing States with the 
resources to be able to develop those resources so that 
individuals--so all families can get them. Right now, only 
pockets of families can get those resources. So it is critical.
    Mr. DAVIS. Thank you.
    Your testimony also emphasized the necessity to include 
fathers in family treatment, noting that this policy evolved 
over time. Can you expand on the importance of focusing on 
fathers in your program?
    Ms. WILLAUER. Absolutely. Addiction affects the whole 
family, including moms, dads, kids, extended family. And if we 
do not include the fathers, then you are not holistically 
addressing the situation. We should include them in treatment, 
in decisionmaking. We should look at their families for support 
for placement for children. And we should look for gender-
specific treatments for those dads.
    Mr. DAVIS. Thank you very much.
    Dr. Barillas, several of the other witnesses have described 
their promising approaches to address parental substance abuse 
and keep children safe. Are these interventions expensive in 
the short term?
    Ms. BARILLAS. Evidence-based practice can be expensive in 
the short term. It requires fidelity to a model, which requires 
specific elements and training. It also requires evaluation, 
and I have found that a lot of times, when programs are funded, 
they are not funded for that evaluation piece. But in the long 
run, as you can hear from the various witnesses, these programs 
have a major impact and save us money.
    Mr. DAVIS. So we follow the trend that an ounce of 
prevention is worth much more than a pound of cure----
    Ms. BARILLAS. Yes, sir.
    Mr. DAVIS [continuing]. If we provide it early on.
    Ms. BARILLAS. Absolutely.
    Mr. DAVIS. Thank you very much.
    And, Mr. Chairman, I yield back.
    Chairman BUCHANAN. Thank you.
    I now recognize Mr. Reed for 5 minutes.
    Mr. REED. Well, thank you, Mr. Chairman.
    And thank you to the panel for your testimony. And each and 
every one of you has a great story, a great piece of 
information to help us on this issue.
    So what I really want to get into is to ask you, on the 
day-to-day perspective of a frontline worker dealing with this 
issue, dealing with the people that are involved, we are trying 
to get to prevention. That seems to be a common theme that we 
are all testifying to in the remarks.
    So, as we go down the path to prevention, what is the 
existing culture with those frontline workers in regards to 
prevention? Is it something they promote? Is it something they 
are committed to? Or are they more focused on the back end, 
dealing with the situation after the crisis has gone on?
    Would anyone like to answer?
    Ms. WILLAUER. I will speak to that. I was a frontline 
worker for 7 years.
    I just think the frontline workers are overwhelmed. The 
caseloads are huge. They don't have the resources they need to 
do their work. It is not that they don't want to do prevention. 
They don't want to remove these children from the home. But 
sometimes, when your caseload is 30 families and you have 
nowhere to send parents to treatment, sometimes you feel like 
foster care might be a safer way to go, when we know that is 
not necessarily true.
    Mr. REED. Any other input?
    Mr. Glynn.
    Mr. GLYNN. My organization works with 8,000 families at any 
given point, but this program here is the one that keeps me up 
at night. And it is the same for the child welfare agencies.
    What we are asking is for a greater risk tolerance, right? 
We are asking that they keep babies, 0- to 3-year-olds, with 
parents who have an active substance abuse issue.
    And so the model that will have to be adapted is one of 
shared risk, one in which we are in the home very often, three, 
four, five times a week, where we are on call 24/7. And we 
share that information with the child welfare workers. And, 
together, we have to make those decisions about is it safe and, 
when it is not, how do we remove the children.
    Mr. REED. Okay. So that is great. So what you are 
envisioning is your organization picking up that risk on the 
front end--or sharing that risk with the child welfare system 
workers going forward.
    Now, that being said, how do you then--we measure the 
success of that preventive measure that you are advocating for 
on the front end with your organization. What is the 
measurement that you would offer us as a guide in that culture?
    Mr. GLYNN. I think, one, it should be placement; did the 
children stay within their biological or natural placement. 
And, two, for us, it is those tox screens. You know, how clean 
are the parents? Do they remain clean during periods of 
treatment, and what does it look like going out after?
    Mr. REED. Okay.
    And then from the child welfare workers' perspective, 
because some folks in D.C. think the ultimate solution is just 
more resources, more resources, and if you keep funding at 
higher and higher levels, you will cure this problem. One of 
the things I have experienced here in the time I have been 
here, since 2010, is often that is not the best solution, nor 
will it lead to a solution. So what you have to do is 
reallocate the resources.
    So, from a child welfare workers' reactive perspective, 
moving to a prevention, what things are they focusing on now on 
the front line that you would say is probably not the best use 
of resources and could be allocated more toward the front end 
to the prevention side of the equation?
    Ms. Barillas, do you have any----
    Ms. BARILLAS. Making----
    Mr. REED. Or is every dollar being 100-percent efficiently 
deployed?
    Ms. BARILLAS. No, no, I would not argue that. But what I 
would say is, you know, in the study we did in Texas, where we 
found that 26 percent of a caseworker's time is the only time 
they are spending with children and families because they are 
busy filling out 5 million forms----
    Mr. REED. Amen.
    Ms. BARILLAS [continuing]. Most of which are repetitive--
you know, I know you all know nothing about that kind of 
paperwork--you know, instead of----
    Mr. REED. And why are they filling out so many forms? What 
is causing that, from the frontline workers' perspective?
    Ms. BARILLAS. It is caused by policy decisions that are 
made at the State level that are sending--we have this great 
idea, we are going to do structured decisionmaking, and we have 
this great idea, we are going to change visitation and make you 
fill out a form, and as part of that policymaking process there 
is no consideration of what implementation is actually going to 
look like on the front line.
    Mr. REED. So is that a fair piece of input that I hear from 
you? When we move to the prevention side, make sure we don't 
duplicate that kind of administrative bureaucratic problem when 
we go to the prevention side?
    Ms. BARILLAS. Oh, absolutely.
    Mr. REED. And what would be the one reform or requirement 
or provision that we could put into that shift in policy that 
would accomplish that to the most successful end?
    Ms. BARILLAS. Well, as I mentioned, considering in the 
implementation what is going to happen in the implementation 
process. There is a lot of this that can be done electronically 
or a lot that is already included in paperwork caseworkers 
have. They are literally duplicating the same information on 
five different forms.
    Mr. REED. So data streamlined and data----
    Ms. BARILLAS. Absolutely.
    Mr. REED. I appreciate that.
    And I am out of time. With that, I yield back.
    Chairman BUCHANAN. Thank you.
    I now recognize Mrs. Black for 5 minutes.
    Mrs. BLACK. Thank you, Mr. Chairman. I want to thank you as 
a non-Committee Member for allowing me to sit on this Committee 
and also be able to ask questions.
    Gosh, I don't know where to begin, just like the other 
Members of this Committee. This is such a big issue.
    But where I do want to start--and if we could just walk 
down the line with this. Help me to understand how you come to 
know that someone needs assistance. Where do you get that first 
contact to say, we need to go and visit this family and become 
a part of helping them to turn the situation around?
    Ms. Willauer, how about you?
    Ms. WILLAUER. Yep. In the START program, families come to 
our attention after a report to the child welfare agency 
regarding some abuse or neglect. START gets involved right 
after that.
    Mrs. BLACK. Okay.
    Mr. Glynn.
    Mr. GLYNN. The same is true for us.
    Mrs. BLACK. Okay.
    Ms. Barillas.
    Ms. BARILLAS. In prevention, a lot of it is other service 
providers. So when families are receiving services from WIC or 
somewhere else and it is noticed that they need assistance, 
they will be referred to a prevention program.
    Mrs. BLACK. Okay.
    Mr. Lindert.
    Mr. LINDERT. In our case in Florida, the families come to 
our attention as a result, primarily, of removal from their 
parents. However----
    Mrs. BLACK. Primarily? I am sorry, I didn't catch that.
    Mr. LINDERT. Removal from their parents.
    Mrs. BLACK. Removal from their parents.
    Mr. LINDERT. In some cases, it is also to serve the 
families in-home prior to removal.
    Mrs. BLACK. Okay.
    Mr. LINDERT. And in the other States where we are working, 
typically it is a result of a hotline call that has been made 
to the State's health welfare agency.
    Mrs. BLACK. Okay.
    So, again, going down the line, tell me what percentage of 
these moms that you come in contact with, what percentage of 
them are either single mothers or of a divorce, where they may 
have been married and no longer are.
    Ms. WILLAUER. I don't have numbers on that, but I can tell 
you it depends on the region of the State.
    Mrs. BLACK. Okay.
    Ms. WILLAUER. And we do have a lot of single-headed 
households. But I can follow up with you.
    Mrs. BLACK. Okay.
    Mr. Glynn.
    Mr. GLYNN. It would be an estimate, but it would be in the 
high 70 to 80 percent----
    Mrs. BLACK. Okay. A high percentage.
    Ms. Barillas.
    Ms. BARILLAS. I would say the same, although I don't have 
the specific numbers right now.
    Mrs. BLACK. Sure.
    Mr. Lindert.
    Mr. LINDERT. It is the same for me.
    Mrs. BLACK. Okay.
    So here is--I want to go back to what Congressman Reed was 
saying, and that is the prevention piece of this. And I will 
just tell you my experience as a registered nurse and also 
coming from the State of Tennessee, where I was on the Child 
and Family Services Committee.
    I helped to bring a program into our State called Nurse-
Family Partnership, where we had young mothers who were not wed 
or in some cases where they may have been but weren't getting 
support from that spouse, that we would interact with very 
early on to make sure that they understood that they were 
carrying a child and bonding with that child and making sure 
they got all the services that they needed that we could 
possibly give them. And that has been funded by the State of 
Tennessee and we have seen very remarkable, remarkable results 
there.
    And so I am a big prevention kind of person. And I am glad 
to see every one of you are nodding your head on that, because, 
obviously, that really is the answer, if we could do that.
    The evaluation piece is the next piece, that we didn't do a 
very good job in our State evaluating, because we saw a lot of 
children that were being removed from their homes, and the 
evaluations when I asked for the numbers and the statistics and 
so on--so if we could just go down the line again about 
evaluation. What are you using to evaluate each one of your 
programs?
    Ms. Willauer.
    Ms. WILLAUER. Can you say more on that? What are we using?
    Mrs. BLACK. Well, what method are you using? Are you 
evaluating----
    Ms. WILLAUER. Yes.
    Mrs. BLACK [continuing]. On a regular basis? And what kinds 
of things are you evaluating when you get involved?
    Ms. WILLAUER. Yes. So we are looking at all kinds of 
factors, what makes our program work. We are looking at child 
removals. We are looking at parental sobriety, reunification, 
recurrence, re-entry into foster care, different designs of 
program evaluation. But it is critical that we have all of 
that.
    Mrs. BLACK. And you are evaluating what works and doesn't 
work.
    Ms. WILLAUER. Absolutely. We are doing a randomized control 
trial in Louisville, Kentucky, on START----
    Mrs. BLACK. Very good.
    Mr. Glynn.
    Mr. GLYNN. The University of Yale provides oversight and 
evaluation to all the service providers.
    Mrs. BLACK. Excellent.
    Ms. Barillas.
    Ms. BARILLAS. In Texas, we have actually really struggled 
with that, and it was only a couple of years ago, when our 
Prevention and Early Intervention Division got a new director, 
that we started really looking. Because, for the most part, 
people were using pre- and post-tests, which really can only 
tell you so much. So, as there was a push for more evidence-
based practice, you see more, for example, like, randomized 
control trials----
    Mrs. BLACK. Good. Yes.
    Yes?
    Mr. LINDERT. We are working with Casey Family Programs to 
evaluate the implementation in four States, and they are using 
an interrupted time series design. Although the evaluation is 
just about to begin.
    Mrs. BLACK. Excellent.
    And I just will finish up by saying that if you don't 
measure something you can't tell whether it is working or not. 
And I think that is one of our problems, Mr. Chairman, is that 
we spend a lot of money on a lot of different programs, but 
when you ask about their evaluations and how they are measuring 
the success, what you see is you are spending a lot of money 
and you are getting a lot of information that isn't valid, that 
you don't have the real statistical information to show that it 
is working.
    And so I think every dollar that we expend from the Federal 
Government should be required to have an evaluation tool where 
we can say that money is actually working. And I will go back 
to that ``ounce of prevention is worth a pound of cure.'' That 
is really where it is good to be spending most of the money, on 
these kinds of programs that we know work.
    So thank you for the work that you do. It is God's work. 
Thank you.
    I yield back.
    Chairman BUCHANAN. Thank you.
    Let me just ask you--you know, everybody has a family 
member or somebody they know, and it just seems to me--and 
everybody has touched on it--is the whole investment seems to 
be, especially with children, the prevention piece.
    And I don't know, I would like to get all of your thoughts 
just quickly on it. But, you know, at what level, what grade 
level, do you need to start working with children? You know, 
you think high school, but then you hear all these stories that 
you have to get down to 3rd and 4th grade. It seems that is the 
investment we have to make in an aggressive way.
    And the reason I say that is because I have seen it in my 
own family, where someone ends up having a problem, and then to 
move them back off that problem is huge, the toll it takes on a 
family and the expense. And many times, I don't know what the 
rate is, but they have to be on guard the rest of their life, 
many times, because the drug owns them.
    So I guess, as it relates to children, what is your 
experience, your thoughts about how early in our school systems 
and everything--parents--do we need to be investing with these 
children in terms of educating them and making sure they 
understand if they make a bad choice it is tough to come back 
from that?
    Ms. Willauer, let's just go down the row real quick.
    Ms. WILLAUER. I guess I would just say it starts at birth. 
It starts with the family. There are early intervention 
services and early childhood services that can help with 
bonding and attachment. So it begins there, and I think there 
are opportunities all the way through the lifespan of a child's 
life.
    Chairman BUCHANAN. Mr. Glynn.
    Mr. GLYNN. I would agree that, you know, what we know about 
brain development really does push us to say we have to invest 
more in the 0 to 5 years of development, and that will help to 
create the executive functions that you are looking for to 
prevent some of the decisions that will be made later on.
    Chairman BUCHANAN. Ms. Barillas.
    Ms. BARILLAS. You stole my answer.
    Yeah, absolutely, the brain development is critical to 
giving children the skills they need to make those decisions. 
But I also agree, if children are going home to an environment 
that is full of these negative influences, then it is not going 
to matter what happens in school or in another program.
    Chairman BUCHANAN. Mr. Lindert.
    Mr. LINDERT. I agree with all of the comments.
    I would also add that when we are thinking about children 
who have come to the attention of the child protection system, 
we have to prioritize early childhood and, in particular, 
infancy. The majority of maltreatment fatalities occur within 
the first 3 years of life, a significant amount of those in 
infancy. And child welfare agencies need to approach early-
childhood cases differently than we approach cases on teenagers 
and at other points throughout the lifespan.
    That is a recommendation of the Commission. It is also 
something I have seen in our systems of care and as a frontline 
worker myself.
    Chairman BUCHANAN. I would like to thank our witnesses for 
appearing before us today. You have given us a lot to think 
about as we try to improve our child welfare system to protect 
more children from harm.
    Please be advised that Members will have 2 weeks to submit 
written questions to be answered later in writing. Those 
questions and answers will be made part of the formal hearing 
record.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
